No. 19-1143

 

IN THE

Supreme Court of the United States

FMC CORPORATION,

Petitioner,
Vv.

SHOSHONE-BANNOCK TRIBES,
Respondent

On Petition for Writ of Certiorari
to the United States Court of
Appeals for the Ninth Circuit

BRIEF FOR THE CHAMBER OF COMMERCE OF THE
UNITED STATES OF AMERICA, POWER COUNTY
DEVELOPMENT AUTHORITY, AND BANNOCK
DEVELOPMENT CORPORATION AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,793 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 17, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
